OFFICE OF INSPECTOR GENERAL
                    Audit Report

Inspection of the Railroad Retirement Board’s
      Financial Management System’s
      Continuous Monitoring Program

       This abstract summarizes the results of the subject audit. The
       full report includes information protected from disclosure and
       has been designated for limited distribution pursuant to
       5 U.S.C. § 552




                     Report No. 11-11
                    September 28, 2011




  RAILROAD RETIREMENT BOARD
                              REPORT ABSTRACT
 Inspection of the Railroad Retirement Board's Financial Management System's
                         Continuous Monitoring Program


The Office of Inspector General for the Railroad Retirement Board (RRB) conducted an
inspection to evaluate the activities conducted at the RRB for the continuous monitoring
of the Financial Management system to determine adherence with existing policy,
procedures, guidance, and standards. This inspection directly supports the Office of
Inspector General’s mandated Federal Information Security Management Act of 2002
evaluation.

The objective of the continuous monitoring program is to determine if the set of
deployed security controls continue to be effective over time in light of the inevitable
changes that occur. Continuous monitoring programs provide organizations with an
effective mechanism to update certain security documents. In fiscal year 2010, the
RRB hired a contractor to perform continuous monitoring testing of the controls over the
Financial Management system.

In a separately issued Restricted Distribution report, we communicated that the RRB’s
continuous monitoring process does not fully comply with existing policy, procedures,
guidance, and standards. As a result, the RRB’s significant deficiency in internal control
over the certification and accreditation process remains in effect because of an
ineffective review process for contractor deliverables. We made five detailed
recommendations to RRB management for improvement in:

   •   controls over the review process of the continuous monitoring deliverables;
   •   the overall planning process for the continuous monitoring program; and
   •   the Bureau of Fiscal Operations’ portion of the RRB’s agency-wide plan of action
       and milestones.

Agency Management has agreed to take corrective actions for all recommendations.
